                                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                            Inspection of
                                 International Broadcasting Bureau
                                   Botswana Transmitting Station

                                    Report Number ISP-IB-11-52A, June 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.


                                               i
                                  SENSITIVE BUT UNCLASSIFIED

                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE AND METHODOLOGY
                           OF THE INSPECTION

This inspection was conducted in accordance with the Quality Standards for Inspections, as
issued by the President’s Council on Integrity and Efficiency, and the Inspector’s Handbook, as
issued by the Office of Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   In accordance with the U.S. International Broadcasting Act of 1994 (P.L. 103-236)
           Section 304(a) (3) (B), OIG is prohibited from evaluating the content of BBG
           broadcasting entities. The section, entitled “Respect for Journalistic Integrity of
           Broadcasters,” states that “The Inspector General shall respect the journalistic
           integrity of the broadcasters covered by this title and may not evaluate the
           philosophical or political perspectives reflected in the content of broadcasts.”

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                           Table of Contents
Key Judgments                                            1
Context                                                  2
Executive Direction                                      3
Mission and Program Implementation                       4
Resource Management                                      6
   Resource Profile                                      6
   Human Resources                                       7
   Financial Management                                  7
   Purchasing                                            8
   Property Management                                   8
Information Management and Cybersecurity                 9
   Information Management                                9
 (b) (5)                                                11
Security                                                13
List of Recommendations                                 14
Informal Recommendations                                16
Principal Officials                                     17
Abbreviations                                           18




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   The Botswana Transmitting Station (BTS) is well run. The station manager has improved
    station operations and cut costs. He has renovated and repaired station facilities, and
    implemented energy-saving initiatives to offset increased energy costs.

•   The International Broadcasting Bureau (IBB) needs to complete the development and
    implementation of a cybersecurity policy at the BTS.

•   The station’s overall security posture is good, although the station manager needs to
    implement procedural and physical security improvements at both transmitter compounds to
    solidify the program.

•   The station needs to strengthen management controls to ensure that inventory is accurate and
    procurement meets standards.




The inspection took place in Washington, DC, between January 3 and 24, 2011, and in Selebi-
Pikwe, Botswana, between January 26 and 28, 2011. (b) (6)




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Context
        The BTS is part of a worldwide communications network operated by the IBB, the
division of the Broadcasting Board of Governors (BBG) that provides engineering and other
support services to the Voice of America (VOA) and a number of other U.S. Government-
supported broadcasting entities. The BTS is responsible for transmitting VOA-produced news
reports and radio shows to regional audiences in Mozambique, Namibia, Angola, Zimbabwe,
Somalia, Ethiopia, South Africa, and Zambia, as well as Botswana itself.

        The station is located on a 1,300-acre site at Moepeng Hill, about 12 miles from the
mining town of Selebi-Phikwe in Botswana’s Central Province and about 250 miles from
Gaborone. Two U.S. direct-hire and 18 local employees work at the station. The station has an
annual budget under $2 million and is one of the smallest stations IBB operates. Like other
transmitting stations, BTS is relatively isolated. However, it benefits from easy access to
Gaborone and South Africa, a reliable and relatively inexpensive supply of electricity, and good
relations with the local community.

       The BTS began as a simple relay station in September 1981, operating from a base in the
town of Selebi-Phikwe. In 1991, it moved to its present, larger location at Moepeng Hill and
became a full-fledged transmitting station. Currently, the BTS operates four shortwave
transmitters and one 600-kW, mediumwave transmitter. These allow for high power,
mediumwave broadcasts for the VOA (in English and Portuguese) to southern Africa and low
power, shortwave broadcasts (in a variety of local languages) to other places in sub-Saharan
Africa and Somalia.

        The lease on the Moepeng Hill facility expires in 2016; negotiations on the renewal
terms are expected to begin sometime in 2014. BTS management believes the Government of
Botswana will not oppose renewing the lease, even though at one time it faced pressure from the
Government of Zimbabwe to limit VOA broadcasts to that country. The more pertinent question
now is the future of shortwave broadcasting.

       Radio remains a major medium of communication in Africa, so even as the worldwide
audience for shortwave broadcasts shrinks and the BBG seeks to expand use of other
communications outlets, the BTS will continue to play an important role in providing VOA-
produced news and features to audiences in Africa.




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The BTS is well run. The station manager, an experienced Foreign Service officer, has
worked with the VOA (with minor interruptions) since 1991. He has served in various capacities
at IBB transmitting or relay stations in Thailand, Greece, Kuwait, and Sri Lanka, as well as in
Greenville, North Carolina. A Civil Service employee on excursion assists him and serves as the
transmitter plant supervisor. The station manager considers the transmitter plant supervisor as his
deputy, and has provided him with multiple opportunities for learning on the job and increasing
his already considerable skills.

         The station manager has both improved station operations and contained costs. Since
arriving at the BTS 3 years ago, he has tightened some management controls and undertaken
multiple renovation and repair projects. He has instituted a number of energy-savings initiatives,
effectively offsetting a 30 percent rise in local electricity costs that Botswana Power Corporation
instituted in May, 2010. He also determined that a proposed project to replace the station’s
temporary operations and maintenance facility was not an efficient use of space or resources and
convinced Washington to halt the estimated $700,000 project, and instead renovate existing
structures at a total cost of about $40,000.

        Both the station manager and the transmitter plant supervisor have good relationships
with the embassy and are in regular contact with multiple offices. Station management praised
the embassy’s regional security, financial management, and general services offices. The station
manager attends country team meetings once a month and sits on several embassy committees,
including the eligible family member hiring committee, budget committee, emergency action
committee, and joint awards committee. He attends some meetings via phone, but others require
an overnight stay in Gaborone. The Ambassador has visited the station multiple times during the
current manager’s tenure, and the deputy chief of mission has visited once. The assistant regional
security officer makes quarterly visits to the station.

        The security and emergency preparedness programs are generally in good condition; the
station’s safety plan and emergency action plan were both updated in November 2010. The
station manager is aware that further improvements are needed. A long awaited IBB security
upgrade project planned for February 2011 will address several of these needs.

         Morale among the local staff varies. The station manager has hosted picnics and other
social events, including a “Family Day,” when local employees brought family members onto
the BTS compound for the first time. The local employees expressed their appreciation for his
efforts. (b) (5)


                                                            Local staff also is concerned about
the future of shortwave broadcasting and, by extension, the future of the transmitting station.

       Early in his tenure, the station manager held regular meetings with senior local staff,
including the radio technicians, at which the staff could discuss station business and voice
concerns. During the past year, those meetings have become much less frequent. The station

                                           3
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

manager told the OIG team that he intends to reinstitute formal meetings as a way to address
staff concerns.

       Informal Recommendation 1: The Botswana Transmitting Station should hold regular
       meetings with local staff to disseminate information and address staff concerns.

Mission and Program Implementation
         The BTS delivers mediumwave and shortwave broadcasts to sub-Saharan Africa, using
content the VOA prepares in Washington and delivers to the station via satellite. In line with the
VOA charter, the broadcasts are meant to provide listeners with a consistently reliable and
authoritative source of news, a balanced and comprehensive projection of American thought and
institutions, and a presentation of U.S. policies via editorials clearly identified as representing the
views of the U.S. Government.

        The station’s mediumwave English and Portuguese broadcasts are directed to southern
Africa; the shortwave broadcasts, in Afan-Oromo, Amharic, English, French, Hausa,
Kinyarwanda/Kurundi, Kurdish, Ndebele, Portuguese, Shona, Somali, Swahili, and Tigrigna are
directed to sub-Saharan Africa and Somalia. The station is on the air 12.5 hours a day, from 5:00
a.m. to 9:30 a.m. and from 4:00 p.m. to midnight, 7 days a week.

       The station has an exceptionally high transmitter availability percentage, an average of
99.79 percent for the last 3 months of 2010. It is equipped with emergency generators that allow
the BTS to maintain operations in case of commercial power failure.

       A list of the VOA programming transmitted by the broadcasts, shown by the type of
transmission, language, and target areas, appears on the next page.




                                            4
                               SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




                  Botswana Transmitter Station Schedule
                          Winter Broadcast Schedule
                      (October 31, 2010 – March 26, 2011)

Transmitter            Program Language            Target Area
                       English                     Sub-Saharan Africa (Anglophone)
                       Swahili                     East Africa
                       Kinyarwanda                 Central Africa
        BOT 1          Hausa                       Niger, Nigeria, West Africa
      100 kW SW        French                      Sub-Saharan Africa
                       English                     Sub-Saharan Africa
                       French                      Sub-Saharan Africa
        BOT 2          Hausa                       Nigeria, Niger, West Africa
                       Portuguese                  Angola, Guinea-Bissau, Cape
      100 kW SW                                    Verde and Sao Tome, Principe
                       English                     Sub-Saharan Africa
                       Swahili                     East Africa
                       Afan-Oromo                  East Africa
                       Somali                      East Africa
        BOT 3          Kurdish                     Turkey, Iraq
      100 kW SW        Kinyarwanda/Kurundi         Central Africa
                       French                      Sub-Saharan Africa
                       English                     Southern Africa
        BOT 4
                       Ndebele and Shona           Zimbabwe
      100 kW SW

        BOT A          English                     Southeastern Africa
     600 kW MW         Ndebele and Shona           Zimbabwe




                                   5
                      SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED




Resource Management
Resource Profile

        The BTS has the following assets, per the IBB’s official 2012 budget request. Budget
figures include staff salaries.

FY 2010 budget (actual)                                       $1,765,357
FY 2011 budget (estimated)                                    $1,970,834
Capital assets                                               $28,528,670
Staff
                                   21 local staff authorized (18 on board)
                               3 U.S. direct-hires authorized (2 on board)


Capitalized Value of BTS Assets
(Source: Network Support Branch of the IBB’s Office of Technology, Services and Innovation)

Capitalized Property                                           Value ($)
Land                                                        2,500,000.00
Buildings                                                   2,156,237.42
Structures and Facilities                                     216,980.48
Satellite Interconnect System                                  90,000.00
Antennas                                                      17,044,000
Receivers                                                          3,500
Communications Equipment                                          16,000
Power Plant and Electrical Power Equipment                  1,057,575.23
Transmitters                                                4,630,000.00
Audio and Speech Equipment                                     27,550.00
Record and Playback Equipment                                     526.90
Test Equipment                                                 86,841.07
Firefighting/Safety Equipment                                  16,450.00
Office Equipment and Furniture                                  5,267.97
Buildings and Grounds Maintenance
Equipment                                                     196,004.42
Vehicles--passenger                                           328,937.58
Vehicles--non-passenger                                       133,611.47
ADP Equipment (LAN Associated)                                 18,543.13
Photo Equipment                                                   644.00

                                        Total              28,528,669.67


                                          6
                             SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

Human Resources

       Embassy Gaborone is responsible for overall human resource management at the BTS,
but day-to-day responsibilities fall to the station’s highly capable administrative specialist. She
works with supervisors and employees to verify that position descriptions are accurate and that
evaluations are done on schedule.

        Local employees are generally satisfied with their grades and salaries, but expressed
concern about job security and the future of the BTS. They are aware that a number of IBB
stations have been closed recently. The OIG’s last inspection 1 detailed a recruiting and retention
problem. Although there has been some staff turnover for retirement, health, and poor
performance reasons, there have been few voluntary departures, and the station manager believes
that retention is no longer an issue. Recruitment for administrative staff is not difficult. An
advertisement for an administrative clerk resulted in 300 applications. Some technical employees
have been with the station for 15 years or more.

Shuttle Service

        Based on crime and safety issues, the transmitting station’s physical isolation and the lack
of public or other transportation, the BTS provides a shuttle to transport personnel between the
station and static stops in Selebi-Phikwe, where most local employees live. The shuttle service is
timed to coincide with the shifts that station personnel work: 3:30 a.m. to 12:00 noon, 7:30 a.m.
to 4:00 p.m., and 3:30 p.m. to 12:00 midnight. The unusual work hours give the station coverage
during broadcast hours: 5:00 a.m. to 9:30 a.m. and 4:00 p.m. to midnight, 7 days a week. The
shuttle service provides the staff with safe transportation and enables them to work during the
early and late hours that correspond with the station’s broadcast hours.

Financial Management

        The administrative specialist is a highly skilled user of the Consolidated Overseas
Accountability Support Toolbox system, which provides her with details of the station’s
financial operations. Budget and funds control are in good order. The operating budget for 2010
was $1,605,000; the 2011 request was $1,655,000. The administrative specialist verifies funds
availability, and the station manager approves purchases. Unliquidated obligations are reviewed
regularly; expenditures do not exceed funds available.

       The station ensures that the value added tax, currently 12 percent, is reimbursed. Value
added tax refunds usually are allocated to energy costs, the station’s highest expenditure.




1
    Office of Inspector General Report of Inspection, The International Broadcasting Bureau’s Botswana
    Transmitting Station, Report Number ISP-IB-05-63, August 2005.
                                                 7
                                    SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

    Cashier Operations

            The BTS cash advance is (b) (5) In June 2008, the Paris-based Financial Support and
    Training Office sent a cashier monitor to BTS to conduct a mandatory 5-year review. Since then,
    the Paris-based cashier monitors remain in regular contact with the BTS cashier and alternate
    cashier, who provide BTS with cashiering services. The station manager conducts monthly cash
    counts. The OIG team observed a cash count the station manager conducted for each of the two
    cashiers; the accounts balanced.
(b) (5)




    Purchasing

           The purchasing agent has not had training for her present position. A file labeled “blanket
    purchase agreements” did not actually include blanket purchase agreements; rather, it contained
    purchase orders for recurring services, which are more properly done with blanket purchase
    agreements. Blanket purchase agreements provide a cost-effective method to solicit competition
    and find reliable vendors. Overseas procurements have been conducted through the U.S. General
    Services Administration schedule contracts. The purchasing agent has a (b) (5) limit on her
    purchase card. Invoices appear to be correct, and vouchers are certified and paid correctly.

           Recommendation 1: The Broadcasting Board of Governors should provide the
           Botswana Transmitting Station with training on procurement requirements and the
           procedures for using blanket purchase agreements. (Action: BBG)

    Property Management

            The transmitting station uses IBB’s expendable inventory system, the Supply Information
    Processing system. The expendable inventory’s paper value is $21,300, but the records show
    inaccurate totals. The recently hired inventory clerk is concerned about her responsibilities for
    entering receiving and withdrawal data into the inventory system. The clerk and her supervisor,
    the facilities manager, both believe they need more training to ensure that the system accurately
    reflects all the station’s expendable supplies. The OIG team agrees that the staff needs more
    systematic and rigorous training.




                                              8
                                 SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         Recommendation 2: The Broadcasting Board of Governors should provide the
         Botswana Transmitting Station property management staff with formal training in the
         Supply Information Processing System (Action: BBG)

         The station uses IBB’s property information processing system to inventory its
nonexpendable property. The administrative section has photographs of the items in the
inventory, with their associated bar codes. The IBB conducted a full review of its nonexpendable
inventory and submitted its annual property certification in April 2010. All items were accounted
for, although there were some documentation errors (which the station is correcting).

Housing

       There are two leased houses in Selibi-Phiwke for the two Americans who work at the
BTS. The annual cost for the station manager’s house is $13,992, and the annual cost for the
transmitter plant supervisor’s residence is $18,000. IBB signed the leases. Both homes are
spacious, attractive, one-story residences with three bedrooms; security is excellent. The grounds
are maintained under the BTS facilities maintenance contract.

Health

        Local employees receive medical care through the embassy’s medical aid contract. The
direct-hire staff receive health care under the station’s International Cooperative Administrative
Service System subscription with Embassy Gaborone. This care includes inoculations, phone and
email consultations, and HEART SAVER First Aid. Additionally, a local nurse is on-call to
provide limited care to the two U.S. direct-hires and the sole spouse in Selebi-Phikwe. A small
medical office is located at the station manager’s residence; the office contains a safe for over-
the-counter medications, malaria prophylaxis, and tetanus vaccines.

Information Management and Cybersecurity
Information Management

        The BTS has a small computer network, with all but one computer located on the
compound. The one off-site computer is located on BTS property in the mediumwave
transmitting facility, a half mile away. The local servers provide email, file access, and network
printer availability. The logical network is based on Microsoft’s active directory. The computers
are connected by CAT-5 and fiber-optic cabling. The operating system for the workstations is
Windows XP, and the file server has Microsoft Server 2003. The email server uses the Sun
Microsystems operating system.

        In the absence of a system administrator, the transmitter plant supervisor handles the
information management duties and creates accounts and permissions to access the network. The
plant supervisor carries out all information management duties in a timely and efficient manner.




                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       IBB headquarters provides centralized support for the BTS network, including policy,
oversight, firewall and switch maintenance, and active directory support. It also manages the
domain and email server.

        The OIG team visited all the systems on the network, ran penetration tests and security
analyzers, and verified the physical environment. The BTS server room is clean and uncluttered.
Network servers are accessible from both the front and the rear. Lighting and temperature
controls are sufficient. The proper fire extinguisher equipment is readily available. Server room
security includes proper door locks and inside grating, secured with a padlock. The walls are slab
to slab, and there are no windows.

        The BBG is in the process of developing policies across a wide range of information
technology functional areas, to be implemented at the BTS and other transmitting stations. In the
meantime, the National Institute of Standards and Technology Special Publication 800-53 (NIST
SP 800-53), Recommended Security Controls for Federal Information Systems and
Organizations, provides that cybersecurity policy, properly communicated and implemented,
will keep the network secure and provide end user accountability. The lack of attention to
cybersecurity opens the network to penetration.

       Recommendation 3: The International Broadcasting Bureau should establish and
       implement cybersecurity policy for the local transmitting stations, based on Federal
       guidelines in National Institute of Standards and Technology Special Publication 800-53,
       Recommended Security Controls for Federal Information Systems and Organizations.
       (Action: IBB)

        The local employee in charge of information management was let go in 2010, and not
replaced. The transmitter plant supervisor, who serves as the system administrator and
information security officer, is training two local employees to repair and support network
systems. However, the supervisor has only basic knowledge of computer support and
cybersecurity. The local employees are motivated learners, but they need more training than the
supervisor can provide. The lack of trained personnel has limited the station’s ability to provide
security oversight and efficiently resolve system problems.

       Recommendation 4: The International Broadcasting Bureau should train the American
       and local staff who are supporting the Botswana Transmitting Station network and
       performing information security duties. (Action: IBB)
       (b) (5)




       Recommendation 5: (b) (5)


       Recommendation 6: (b) (5)


                                          10
                              SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED

                  The BTS receives regular delivery of mail and packages. Local employees bring the
          items into the administration building, where they open them. The U.S. Postal Service details
          procedures for opening mail (Publication 166, U.S. Postal Inspection Service Guide to Mail
          Center Security (b) (5)


(b) (5)




                                                   11
                                       SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED
(b) (5)




                      12
          SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED
(b) (5)




     Security
             The regional security office at Embassy Gaborone has responsibility for the entire U.S.
     mission security program in Botswana, including the BTS. The transmitter plant supervisor acts
     as the unit security officer, overseeing security at the station. He understands basic security
     requirements and holds station personnel accountable for maintaining security standards.

             The embassy’s assistant regional security office visits the BTS quarterly, to inspect the
     guard force, provide needed training, and offer advice and assistance to the guard force and post
     security officer. The station manager praised the level and quality of the support provided.
            (b) (5)




                                              13
                                  SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED



   List of Recommendations
   Recommendation 1: The Broadcasting Board of Governors should provide the Botswana
   Transmitting Station with training on procurement requirements and the procedures for using
   blanket purchase agreements. (Action: BBG)

   Recommendation 2: The Broadcasting Board of Governors should provide the Botswana
   Transmitting Station property management staff with formal training in the Supply Information
   Processing System (Action: BBG)

   Recommendation 3: The International Broadcasting Bureau should establish and implement
   cybersecurity policy for the local transmitting stations, based on Federal guidelines in National
   Institute of Standards and Technology Special Publication 800-53, Recommended Security
   Controls for Federal Information Systems and Organizations. (Action: IBB)

   Recommendation 4: The International Broadcasting Bureau should train the American and
   local staff who are supporting the Botswana Transmitting Station network and performing
   information security duties. (Action: IBB)
(b) (5)




                                             14
                                 SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED
(b) (5)




                      15
          SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED




     Informal Recommendations
             Informal recommendations cover operational matters not requiring action by
     organizations outside the inspected unit and/or the parent regional bureau. Informal
     recommendations will not be subject to the OIG compliance process. However, any subsequent
     OIG inspection or on-site compliance review will assess the mission’s progress in implementing
     the informal recommendations.

     Informal Recommendation 1: The Botswana Transmitting Station should hold regular
     meetings with local staff to disseminate information and address staff concerns.
(b) (5)




                                             16
                                 SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED




Principal Officials
                                       Name                   Arrival Date

Station Manager                        George O. Miller       11/07

Transmitter Plant Supervisor           Gunter Erich Schwabe   12/08




                                           17
                               SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations


BBG             Broadcasting Board of Governors

BTS             Botswana Transmitting Station

Department      U.S. Department of State

IBB             International Broadcasting Bureau

VOA             Voice of America




                            18
                SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
         Arlington, VA 22219



   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.




                              1
                 SENSITIVE BUT UNCLASSIFIED
